INS-O-98-02




                  INSPECTION                        REPORT ON
                                              INSPECTION REGARDING
                    REPORT                  SMALL BUSINESS CONTRACTING
                                             STATISTICS REPORTING AND
                                                   PRESENTATION




                                                      APRIL 1998




               U.S. DEPARTMENT OF ENERGY
              OFFICE OF INSPECTOR GENERAL
                  OFFICE OF INSPECTIONS
The Office of Inspector General wants to make the distribution of its reports as
customer friendly and cost effective as possible. Therefore, this report will be available
electronically through the Internet five to seven days after publication at the following
alternative addresses:


                      Department of Energy Headquarters Gopher
                                  gopher.hr.doe.gov

                 Department of Energy Headquarters Anonymous FTP
                               vm 1.hqadmin.doe.gov

           U.S. Department of Energy Human Resources and Administration
                                      Home Page
                               http://www.hr.doe.gov/ig

Your comments would be appreciated and can be provided on the Customer Response
Form attached to the report.


                           This report can be obtained from the
                                U.S. Department of Energy
                      Office of Scientific and Technical Information
                                        P.O. Box 62
                             Oak Ridge, Tennessee 37831
                          U.S. DEPARTMENT OF ENERGY
                         OFFICE OF INSPECTOR GENERAL




                                  REPORT ON

                             INSPECTION REGARDING

                  SMALL BUSINESS CONTRACTING STATISTICS

                         REPORTING AND PRESENTATION




Report No.: INS-O-98-02                             Office of Inspections
Date Issued: April 2, 1998                          Washington, D.C. 20585
                                       REPORT ON
                                  INSPECTION REGARDING
                          SMALL BUSINESS CONTRACTING STATISTICS
                              REPORTING AND PRESENTATION


                                            TABLE OF CONTENTS

                                                                                                      Page

 I. INTRODUCTION AND PURPOSE .................................................                         1

II. SCOPE AND METHODOLOGY .....................................................                        2

III. SUMMARY RESULTS OF INSPECTION .......................................                             2

IV. BACKGROUND .............................................................................           4

V. RESULTS OF INSPECTION .........................................................                     5

        A. Annual Report to Congress on the Small Business
           Program ................................................................................    5

        B. FY 1995 Performance Agreement with the President .........                                  8

        C. Small Business Statistics in Visual Aids Prepared
           for the Former Secretary ......................................................            13

VI. RECOMMENDATIONS .................................................................                 20


    APPENDICES

        APPENDIX A - Definitions of Important Terms

        APPENDIX B - Development of Small Business Prime Contracting
                     Goal for FY 1995 Performance Agreement
                          U.S. DEPARTMENT OF ENERGY
                         OFFICE OF INSPECTOR GENERAL
                             OFFICE OF INSPECTIONS


                                REPORT ON
                           INSPECTION REGARDING
                   SMALL BUSINESS CONTRACTING STATISTICS
                       REPORTING AND PRESENTATION


I. INTRODUCTION AND PURPOSE

On September 11, 1995, the Office of Inspections, Office of Inspector General (OIG),
Department of Energy (DOE), received an allegation regarding the accuracy of the
Department’s small business contracting statistics in the Secretary of Energy’s Fiscal
Year (FY) 1995 Performance Agreement with the President, entitled: “PERFORMANCE
AGREEMENT BETWEEN THE PRESIDENT OF THE UNITED STATES WILLIAM
JEFFERSON CLINTON AND THE SECRETARY OF ENERGY HAZEL R. O’LEARY.”
It was alleged that the FY 1995 Performance Agreement incorrectly communicated that
the Department intended to increase small business contracting from 25 percent in
FY 1994 to more than 34 percent in FY 1995. We subsequently received additional
allegations that the Office of Economic Impact and Diversity (ED) had not issued a
required annual report to Congress on the Department’s small business program since
1992 as required by the Department of Energy Act of 1978--Civilian Applications, as
amended by Public Law 96-470, and may have provided incorrect information for use in
Secretarial presentations on the Department’s small business program.

On October 13, 1995, we referred the above allegations to the Director, ED, and the
Acting Assistant Secretary for Policy and International Affairs for appropriate action and
response to us. On November 14, 1995, we received a response from the Acting
Assistant Secretary for Policy and International Affairs stating that ED should be asked
to address the merits of our concerns. We subsequently contacted ED on several
occasions to determine the status of their response to our referral. We also provided
ED officials with additional copies of our referral letter at their request. However, more
than a year after we referred the allegations to ED, we had not received a response
from ED regarding the allegations. Since efforts to resolve these issues through the
management referral process were unsuccessful, we notified the Director, ED, on
February 13, 1997, that we would conduct a review of issues regarding the allegations
as part of our ongoing inspection of the Department’s small business contracting goals.

During this inspection, we sought to determine if the Office of Economic Impact and
Diversity:




                                           1
    1. Issued the annual “Report to Congress on the Small Business Program” for FY
       1993, FY 1994, and FY 1995, as required by the Department of Energy Act of
       1978--Civilian Applications, as amended by Public Law 96-470, and

    2. Notified the Office of the Assistant Secretary for Policy and International Affairs
       that the Department’s small business prime contract goal in the FY 1995
       Performance Agreement with the President needed to be revised.

We also sought to determine if:

    3. Visual aids prepared for Secretarial presentations contained incorrect
       information regarding the Department’s small business program.


II. SCOPE AND METHODOLOGY

In conducting this inspection, we interviewed DOE Headquarters managers and staff
personnel in the Office of Economic Impact and Diversity, the Office of the Assistant
Secretary for Policy and International Affairs; the Office of the Assistant Secretary for
Human Resources and Administration; and the Office of the Assistant Secretary for
Congressional, Public, and Intergovernmental Affairs. We also reviewed material
related to the development and reporting of small business contracting statistics,
including files and copies of presentations given by Secretary Hazel R. O’Leary
(hereafter, Secretary O’Leary will be referred to as the “former Secretary”).

This inspection was conducted in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.


III. SUMMARY RESULTS OF INSPECTION

The Office of Inspector General received allegations regarding the development and
reporting of the Department’s small business contracting statistics. Specifically, it was
alleged that ED did not issue a required annual report to Congress on the Department’s
small business program since 1992. It was also alleged that the Department’s FY 1995
Performance Agreement with the President incorrectly communicated that the
Department intended to increase small business contracting from 25 percent in
FY 1994 to more than 34 percent in FY 1995. According to the allegation, although the
Department’s FY 1995 goal appeared to be an increase over FY 1994, it was actually
less than the FY 1994 goal when computed on a comparable basis. Further, it was
alleged that ED officials may have provided incorrect information for use in Secretarial
presentations on the Department’s small business program.




                                            2
Annual Report to Congress on the Small Business Program

We found that the Department was not in compliance with the requirement of the
Department of Energy Act of 1978--Civilian Applications, as amended by Public Law
96-470, to provide an annual report within the required time period to Congress on the
Department’s small business program.

The Department’s annual report for FY 1993 was not submitted to Congress until
August 1995. At the time of our inspection, however, annual reports for FY 1994 and
FY 1995 had not been submitted to Congress, nor, according to ED officials, was the
Secretary notified by an Information Memorandum that the reports had not been
submitted, as required by Office of Executive Secretariat (ES) guidance.

FY 1995 Performance Agreement with the President

We found that, although the Department’s FY 1995 small business contracting goal had
been revised to 18.4 percent and resubmitted to the Small Business Administration
(SBA), ED officials did not attempt to change the FY 1995 small business contracting
goal (“more than 34 percent”) in the FY 1995 Performance Agreement with the
President.

The number for the small business contracting goal submitted by the Department to
SBA for FY 1995 was 34.5 percent. The Director, ED, said that the number submitted
to SBA was also included in the Department’s FY 1995 Performance Agreement
submitted to the President. In the FY 1995 Performance Agreement, the former
Secretary committed the Department to “IMPROVING ACCESS FOR SMALL
BUSINESSES.” According to the Performance Agreement, success would be
measured by increasing small business contracting from 25 percent in FY 1994 to
more than 34 percent by the end of FY 1995. About the time that the President signed
the Department’s FY 1995 Performance Agreement, the Department was notified by
SBA that the numbers for the Department’s FY 1994 small business contracting
achievements and FY 1995 small business contracting goals would have to be revised.
According to SBA, unlike previous years, the Department’s small business contracting
numbers for FY 1994 achievements and FY 1995 goals did not include Management
and Operating (M&O) contractor “salaries and expenses.” Although the Department
subsequently revised the number for the FY 1995 small business contracting goal to
18.4 percent and submitted the revised number to SBA, ED officials did not attempt to
change the FY 1995 small business contracting goal (“more than 34 percent”) in the
FY 1995 Performance Agreement.

Small Business Statistics in Visual Aids Prepared for the Former Secretary

We identified a visual aid (briefing chart) that was prepared for a presentation by the
former Secretary to the Congressional Black Caucus on July 12, 1995, that contained
incorrect information. Although the title of the chart indicated the dollar amounts on


                                           3
the chart represented amounts for women and minority businesses for FY 1992 and
FY 1994, the dollar amounts actually represented the total dollar amount for small
business prime contracts for those years.

We identified four additional charts that were prepared for briefings on the
Department’s small business program that contained incorrect information. Three of
the four additional charts compared the actual total dollar amount of small business
prime contracts for FY 1992 with the FY 1994 goal. The goal, however, was labeled as
“DELIVERED.” Two of the three charts were prepared for briefings by the former
Secretary, while one chart was prepared for a briefing by the Director, ED. With one
exception, we could not determine if the charts were used in presentations or, if so,
how the information on the charts was characterized. For the one chart that we were
able to determine was used by the former Secretary, she verbally characterized the
information on the chart correctly. The remaining chart compared percentages of
DOE’s minority business investments for the years FY 1992 through FY 1995. This
chart used a percentage for FY 1995 that was computed on a different basis than the
previous years.


IV. BACKGROUND

The Office of Small and Disadvantaged Business Utilization (OSDBU) is one of several
offices within ED. According to the OSDBU Mission Statement, OSDBU has
“responsibility within the Department for policy, plans and oversight of . . . the Small
Business Act, as amended and Executive Orders . . . relating to preference programs
for small businesses, disadvantaged businesses, labor surplus area concerns and
women-owned businesses.” OSDBU’s Function Statement further states that OSDBU,
“Coordinates and prepares the Department’s goals for assigned programs,
recommends Directorial approval of such goals and subsequent to Directorial approval,
negotiates, establishes and reports on goals for the assigned programs with the
cognizant Federal agencies.”

The Small Business Act, as amended, requires the head of each Federal agency, after
consultation with SBA, to establish goals for the award of contracts to small business
concerns and to small business concerns owned and controlled by socially and
economically disadvantaged individuals. Within DOE, OSDBU is responsible for the
negotiation, establishment, coordination, and reporting of these goals.

Terms that are important to the subject of this report are defined in Appendix A.




                                           4
V. RESULTS OF INSPECTION

The Office of Inspector General received allegations regarding the development and
reporting of the Department’s small business contracting statistics. Specifically, it was
alleged that ED did not issue a required annual report to Congress on the Department’s
small business program since 1992. It was also alleged that the Department’s FY 1995
Performance Agreement with the President incorrectly communicated that the
Department intended to increase small business contracting from 25 percent in
FY 1994 to more than 34 percent in FY 1995. Further, it was alleged that ED officials
may have provided incorrect information for use in Secretarial presentations on the
Department’s small business program.

A. Annual Report to Congress on the Small Business Program

The Department of Energy Act of 1978 - Civilian Applications - Public Law 95-238,
Title II § 204, February 25, 1978, as amended by Public Law 96-470, Title II, § 203 (f),
October 19, 1980, states that:

“(b) The Secretary of Energy shall submit annually to the appropriate committees of the
House of Representatives and the Senate a full report on the actions taken in carrying
out subsection (a) during the preceding year, including the extent to which small
business concerns are participating in the programs involved and in projects and
activities of various types and sizes within each such program, and indicating the steps
currently taken to assure such participation in the future.”

We found that the Department was not in compliance with the requirement of the
Department of Energy Act of 1978--Civilian Applications, as amended by Public Law
96-470, to provide an annual report within the required time period to Congress on the
Department’s small business program.

We determined that, with the exception of the FY 1988 report, for at least 10 years prior
to 1993, the Department had submitted to Congress, on an annual basis, a report on
the Department’s small business program. However, we learned that the Department’s
FY 1993 report on the small business program was not submitted to Congress until
August 1995. Also, on September 30, 1997, we were advised by a senior ED official
that a small business program report to Congress combining FY 1994/FY 1995 had not
yet been signed by the Secretary.

Senior ED officials we interviewed said they knew that the annual reports to Congress
on the Department’s small business program for FY 1994 and FY 1995 had not been
submitted to Congress. When we asked the senior ED official responsible for
preparing the report why the Department had not submitted annual reports for FY 1994
and FY 1995, the senior ED official said that field organizations did not respond on a
timely basis to a “request for information call,” which the ED official said was the major
cause of delays in getting the FY 1994 report written. Regarding the FY 1995 report,


                                            5
the official said that the report had been delayed for several reasons: reorganizations
within the Department, both at Headquarters and in the field; changing missions within
the Department; office realignments; and the slowness of receiving information from the
field. The official also said that much of the information provided by the field was not
accurate, which caused delays because of the need to go back to the field
organizations for accurate information.

The senior ED official made the decision to combine the FY 1994 and FY 1995 annual
reports to Congress. He said his decision was based on the Department previously
combining annual reports for FY 1994 and FY 1995 for a different subject into one
report. This report, the “Annual Performance Report,” reported the Department’s
progress toward filling some of the Nation’s most important energy related needs. This
combined report, the FY 1994 & FY 1995 Annual Performance Report, had been
signed by the former Secretary and sent to the President.

We concluded that ED did not take appropriate action to ensure the required reports on
the Department’s small business program were submitted on a timely basis.

In commenting on a draft of this report, the Director, ED, stated, “In principle, we agree
with the draft Report’s finding that the Department is not in compliance with the
requirements of the Department of Energy Act of 1978 to provide an annual report to
Congress on the Department’s small business program.” In further commenting on the
draft report, the Director stated:

“However, it is important to emphasize that the time period is administratively
determined by the affected program office. There is no statutorily [sic] set date by
Congress or the Department . . . . Based on the records from the Office of the
Executive Secretariat’s Action Coordination Congressional Reports Tracking System
[ACCRTS], the actual dates submitted . . . clearly show that the Small Business
Reports were not submitted on an annual basis as required by Congress but rather
were submitted at various times of the following year to Congress.”


       Notification to Secretary

ES established ACCRTS to track reports to the President, Congress, and other Federal
agencies, and to track Federal Register Notices and projects of interest to the Office of
the Secretary. The ACCRTS guidance stated that: “When a requirement will not meet
an administrative due date, the Secretary should be notified by an Information
Memorandum.”

We found that, although senior ED officials did not make the required notification to the
Secretary that the Department’s annual small business reports to Congress had not yet
been submitted, ED officials had notified ES that the reports were late.




                                            6
According to a member of the ES staff, ED had not notified the Secretary by an
Information Memorandum that the annual small business reports to Congress had not
yet been submitted and would be late. Senior ED officials said they knew the annual
small business reports to Congress were late. However, they said they were not aware
that the Secretary was to be notified when a report to Congress was going to be late,
nor could they recall if there was a requirement to prepare an Information Memorandum
to the Secretary concerning the late reports.

In comments to a draft of our report, the Director, ED, said that ES had been notified
through the ES Congressional Reports Coordination Tracking System that the reports
were late. In view of the Director’s comment, ES should evaluate its guidance
regarding the process for notifying the Secretary of late reports by an Information
Memorandum to determine whether such a requirement is necessary. If it is
determined that an Information Memorandum should continue to be required, ES
should ascertain whether this requirement is being followed by the Department, and
take appropriate action if the requirement is not being followed.

        Accuracy of Statistics

We learned that the Office of Procurement and Assistance Management (Procurement)
was concerned with the accuracy of statistics in the combined FY 1994/FY 1995 small
business program report being prepared by ED for submission to Congress.

According to a senior ED official, submission of the combined FY 1994/FY 1995 small
business program report to Congress had been delayed, in part, because Procurement
officials found that the numbers in the reports provided by the field did not match the
numbers that they (Procurement) had generated.

In a March 10, 1997, memorandum to the Director, ED, Subject: “COMMENTS BY THE
OFFICE OF PROCUREMENT AND ASSISTANCE MANAGEMENT ON DRAFT SMALL
BUSINESS REPORT FOR FISCAL YEARS 1994 AND 1995,” the Deputy Assistant
Secretary for Procurement and Assistance Management identified numerous statistical
errors that were found in the draft report. The Deputy Assistant Secretary stated that:
“We support that the Acting Secretary not sign the report. Since the report is 2 years
overdue for FY 1994 and 1 one [sic] year overdue for FY 1995, perhaps someone other
than the Secretary of Energy should sign the report.”

In comments to a draft of this report, the Deputy Assistant Secretary for Procurement
and Assistance Management said that his Office objected to the combined
FY 1994/FY 1995 report to Congress “because of the ways in which the data were
arrayed and the mathematical errors in the report, not because of a mismatch in data.”

Because of the inaccuracies identified by the Office of Procurement and Assistance
Management with the statistical data in the combined draft FY 1994/FY 1995 annual
report, we believe that internal controls within ED regarding the development and


                                          7
reporting of small business contracting statistical data should be strengthened to
ensure the accuracy of data provided in reports to Congress and other Government
agencies.

In commenting on a draft of this report, the Director, ED, stated that: “With respect to
the draft Report’s discussion on the accuracy and documentation of the Department’s
small business contracting statistics, we are also concerned and have been working
with the Office of Procurement and Assistance Management to implement appropriate
solutions.”

B. FY 1995 Performance Agreement with the President

We found that, although the Department’s FY 1995 small business contracting goal had
been revised to 18.4 percent and resubmitted to SBA, ED officials did not attempt to
change the FY 1995 small business contracting goal (“more than 34 percent”) in the
FY 1995 Performance Agreement with the President.

The Department is required, on an annual basis, to submit small business contracting
goals and prior year achievements to SBA. Public Law 85-536 (the Small Business
Act), as amended by Section 221 of Public Law 95-507, requires the head of each
Federal agency, after consultation with SBA, to establish goals for participation by
small business concerns and by small business concerns owned and controlled by
socially and economically disadvantaged individuals, in procurement contracts of the
agency. It also requires the head of each Federal agency, at the end of each fiscal
year, to report to SBA the extent of participation by small business concerns and small
business concerns owned and controlled by socially and economically disadvantaged
individuals, in procurement contracts of the agency.

The number for the small business contracting goal submitted by the Department to
SBA for FY 1995 was 34.5 percent. The Director, ED, said that the number submitted
to SBA was also included in the Department’s FY 1995 Performance Agreement
submitted to the President. In the FY 1995 Performance Agreement, the former
Secretary committed the Department to “IMPROVING ACCESS FOR SMALL
BUSINESSES.” According to the Performance Agreement, success would be
measured by increasing small business contracting from 25 percent in FY 1994 to more
than 34 percent by the end of FY 1995. About the time that the President signed the
Department’s FY 1995 Performance Agreement, the Department was notified by SBA
that the numbers for the Department’s FY 1994 small business contracting
achievements and FY 1995 small business contracting goals would have to be revised.
According to SBA, unlike previous years, the Department’s small business contracting
numbers for FY 1994 achievements and FY 1995 goals did not include Management
and Operating (M&O) contractor “salaries and expenses.” Although the Department
subsequently revised the number for the FY 1995 small business contracting goal to
18.4 percent and submitted the revised number to SBA, ED officials did not attempt to




                                           8
change the FY 1995 small business contracting goal (“more than 34 percent”) in the
FY 1995 Performance Agreement with the President.

A chronological discussion of selected events that resulted in the former Secretary and
the President signing the Department’s FY 1995 Performance Agreement is in
Appendix B.

The Director, ED, said that the failure to change the number of 34 percent in the
FY 1995 Performance Agreement for the Department’s FY 1995 small business prime
contracting goal, which had been initially provided to SBA, to 18.4 percent was
apparently an oversight by ED. She said that she is not aware of a mechanism to make
changes to the Performance Agreement. She also said that, at some point, she told
then Secretary O’Leary that “we aren’t going to make this,” referring to the FY 1995
small business contracting goal of more than 34 percent that was in the FY 1995
Performance Agreement. She said that she could not recall what the former Secretary
had said in response.

The “Term of Agreement” in the FY 1995 Performance Agreement stated that: “This
agreement will remain in effect until modified. It is expected that it will be updated at
least annually to reflect significant changes in budget, policy, personnel, or other
factors that may affect the accomplishment of objectives.”

A senior policy analyst in the Office of Policy and International Affairs told us that “there
is a mechanism to make changes to the performance agreement; however, it has never
been exercised.” The policy analyst also said that ED could have submitted changes to
the performance measures that were in the FY 1995 Performance Agreement, but the
changes, after going through the process, would not have occurred until the first or
second quarter of FY 1996.

We concluded that although ED officials learned that the small business contracting
goal in the FY 1995 Performance Agreement with the President was no longer correct,
ED officials did not notify the Office of Policy and International Affairs that the
Performance Agreement should be changed accordingly.

In commenting on a draft of this report, the Director, ED, stated that: “We do not agree
with the initial draft Report’s finding that ED did not take appropriate action to ensure
the FY 1995 Performance Agreement was changed to include the revised number for
the FY 1995 small business contracting goal.” The Director, ED, further stated that:
“We do not believe there would have been time to change the goal language in the
Performance Agreement and, more importantly, we do not believe it was necessary.”

In commenting on a draft of this report the Acting Director, Office of Strategic Planning,
Budget and Program Evaluation, Office of Policy and International Affairs, stated that:
“Although the Agreement for FY 1995 was not formally revised, a mechanism that was
used by other offices was to address any necessary changes to commitments in their


                                             9
status reports. An example was the discussion of the impact of the Congressional
budget rescission on our ability to add the planned 25,000 alternative fuel vehicles to
Federal and local fleets.”

The comments by the Acting Director indicate that a mechanism was available and was
used by other offices to address changes to their commitments in the FY 1995
Performance Agreement with the President. ED, however, did not utilize this
mechanism. Although the Director, ED, stated that “at the end of the year, an agency
reports to the President on their success in meeting the goals,” we reviewed the
Department’s FY 1994 & 1995 Annual Performance Report, which was closely linked to
the Department’s FY 1995 Performance Agreement, and found that it did not include a
discussion of the success by the Department in meeting the small business goals.

         Calculation of Small Business Goals and Achievements

According to the Director, ED, a “goaling team” was established comprised of
representatives from Headquarters and field organizations to develop the Department’s
FY 1995 small business contracting goals. She said that instead of Headquarters
dictating the goals to the field, it was felt that having field representatives participate in
the goaling process would enable them to “buy into” achieving the goals that were
established. She said that the goaling team developed an approach for establishing
the Department’s total procurement baseline. Under this approach, M&O contractor
salaries and expenses were not included in the total procurement baseline.
Subsequently, the Department established its FY 1995 small business prime
contracting goal of 34.5 percent, which excluded M&O contractor salaries and
expenses. On October 18, 1994, the Department submitted its FY 1995 procurement
goals to SBA, which included the number of 34.5 percent for the small business prime
contracting goal. The Department was notified by SBA in November 1994, that DOE’s
FY 1995 procurement goals were accepted.

On May 10, 1995, the Department provided SBA the Department’s FY 1994 small
business achievements. The Department reported the number for its FY 1994 small
business prime contracting achievements as 35.4 percent. The number for the
FY 1994 small business prime contracting achievements was calculated using a total
procurement baseline that excluded M&O contractor salaries and expenses. However,
SBA had not authorized ED to use the new baseline when calculating the Department’s
FY 1994 small business prime contracting achievements. This was because the
Department had included the M&O contractor salaries and expenses when previously
calculating the FY 1994 small business prime contracting goals.

The Director, ED, stated in her comments on a draft of this report that: “In 1994, when
the goal was established at 25%, we were initially unaware that the contracting
baseline included monies for M&O employees’ salaries and benefits.”




                                             10
Our inspection disclosed, however, that the Department had included monies for M&O
employees’ salaries and benefits in the contracting baseline in previous year reports to
SBA.

In a July 10,1995, letter to the Director, ED, the Deputy Administrator, SBA, notified the
Department that SBA would not accept the Department’s FY 1994 achievement report.
According to the Deputy Administrator’s letter, the Department’s FY 1994 achievements
excluded M&O salaries and expenses from the FY 1994 procurement baseline and,
therefore, were unacceptable. The Deputy Administrator’s letter also stated that other
agencies had contractual arrangements “similar” to DOE’s relationship with the M&O
contractors. Therefore, SBA could not allow all agencies in similar situations to
exclude M&O contractor salaries and expenses from the goaling baseline. As a result,
the Deputy Administrator requested that the Department resubmit “1994 achievements
and 1995 goals using the total DOE procurement baseline, including salaries and
expenses for the M&O contractors . . . .”

Subsequently, in August 1995, the Department provided SBA its revised numbers for
“1994 achievements and 1995 goals using a baseline that included salaries and
expenses for the M&O contractors.” The Department reported its FY 1994 small
business prime contracting achievement as 19.5 percent and its FY 1995 small
business prime contracting goal as 18.4 percent.

The following table (see Table 1, page 12) is provided to assist in
understanding the origin of the numbers (percentages) initially provided by the
Department to SBA for its FY 1994 small business prime contracting
achievement and FY 1995 small business prime contracting goal, as well as the
origin for the revised numbers subsequently provided to SBA.




                                           11
                                           TABLE 1

                       Summary of Data on DOE Small Business
                         Contracting Goals and Achievements
                               For FY 1994 & FY 1995
                                      ($ in 000s)

             PROPOSED PROCUREMENT GOALS                                  FY 94               FY 95

Row A Est. Total $ Value of Prime Contracts (Incl M&O expenses)      $   18,000,000     $    16,480,000

Row B Small Business Prime Contract $ (Goal)                         $    4,500,000     $     3,029,100

Row C Resulting % (Goal)                                                         25%                 18.4%

Row D Est. Total $ Value of Prime Contracts (w/o M&O expenses)            N/A           $     8,780,000

Row E Resulting % (Goal)                                                                             34.5%


                        REPORTED ACHIEVEMENTS                            FY 94               FY 95

Row F Actual Total $ Value of Prime Contracts (Incl M&O expenses)    $   17,104,716     $ 16,375,427.00

Row G Small Business Prime Contract $ (Actual)                       $    3,328,780     $   3,304,434.00

Row H Resulting % (Actual)                                                      19.5%                20.2%

Row I   Actual Total $ Value of Prime Contracts (w/o M&O expenses)   $    9,404,716           N/A

Row J   Resulting % (Actual)                                                    35.4%         N/A



        FY 1994 Goal/Achievements

As illustrated in Table 1, the Department’s estimated total dollar value of prime
contracts for FY 1994, including M&O contractor salaries and expenses, was $18.0
billion (Row A). The Department’s goal was to award $4.5 billion in small business
prime contracts (Row B). This resulted in a number of 25 percent for the
Department’s FY 1994 small business prime contracting goal (Row C), which was
reported to SBA.

The actual total value of prime contracts for FY 1994, including M&O contractor
salaries and expenses, was $17.1 billion (Row F). In FY 1994, the Department
awarded $3.3 billion in small business prime contracts (Row G). This resulted in a
number of 19.5 percent for the Department’s FY 1994 small business prime
contracting achievement (Row H).

However, the number initially reported to SBA for the Department’s FY 1994 small
business prime contracting achievement was 35.4 percent (Row J). This number


                                                    12
was calculated using $9.4 billion as the total dollar value of prime contracts awarded
in FY 1994 (Row I). This total dollar value excluded M&O contractor salaries and
expenses.

      FY 1995 Goal/Achievements

As illustrated in Table 1, the Department’s estimated total dollar value of prime
contracts for FY 1995, excluding M&O contractor salaries and expenses, was about
$8.8 billion (Row D). The Department’s goal was to award about $3.0 billion in small
business prime contracts (Row B). This resulted in a number for the Department’s
FY 1995 small business prime contracting goal of 34.5 percent (Row E), which was
initially reported to SBA. This number was used as a basis for the FY 1995 small
business contracting goal (“more than 34 percent”) included in the Department’s
FY 1995 Performance Agreement.

The Department’s estimated total dollar value of prime contracts for FY 1995, including
M&O contractor salaries and expenses, was about $16.5 billion (Row A). The
Department’s goal was to award about $3.0 billion in small business prime contracts
(Row B). This would have resulted in a number for the Department’s FY 1995 small
business prime contracting goal of 18.4 percent. This revised number for the
Department’s FY 1995 small business prime contracting goal was subsequently
submitted to SBA at their request. However, ED officials did not notify the Office of
Policy and International Affairs that the FY 1995 small business contracting goal (“more
than 34 percent”) in the FY 1995 Performance Agreement should be changed.

The Department’s actual total value of prime contracts for FY 1995, including M&O
contractor salaries and expenses, was about $16.4 billion (Row F). In FY 1995, the
Department awarded $3.3 billion in small business prime contracts (Row G). This
resulted in a number for the Department’s FY 1995 small business prime contracting
achievement of 20.2 percent (Row H).

C. Small Business Statistics in Visual Aids Prepared for the Former Secretary

We received allegations regarding possible incorrect information on visual aids
prepared for presentations by the former Secretary and the Director, ED, on the
Department’s small business program. The following is a brief discussion of five charts
that we identified that contained incorrect information.

We identified a visual aid (briefing chart) that was prepared for a presentation by the
former Secretary to the Congressional Black Caucus on July 12, 1995, that contained
incorrect information (see Chart One, page 16). Although the title of the chart indicated
the dollar amounts on the chart represented amounts for women and minority
businesses for “Bush” (FY 1992) and “Clinton” (FY 1994), the dollar amounts actually
represented the total dollar amount for small business prime contracts for those years.




                                           13
We identified four additional charts that were prepared for briefings on the
Department’s small business program that contained incorrect information. Based on
the dollar amounts represented by the charts, three of the four additional charts
compared the actual total dollar amount of small business prime contracts for FY 1992
with the FY 1994 goal. The goal, however, was labeled as “DELIVERED.” Two of the
three charts were prepared for briefings by the former Secretary, while one chart was
prepared for a briefing by the Director, ED. With one exception, the chart for the
Diversity Conference, July 27-29, 1994, we could not determine if the charts were used
in presentations or, if so, how the information on the charts was characterized. For the
one chart that we were able to determine was used by the former Secretary, she
verbally characterized the information on the chart correctly. The remaining chart
compared percentages of DOE’s minority business investments for the years FY 1992
through FY 1995. This chart used a percentage for FY 1995 that was computed on a
different basis than the previous years (see Chart Two, page 18).

      Comparison of FY 1992 Actual With FY 1994 Goal

It was alleged that charts prepared for use by the former Secretary and the Director,
ED, compared the FY 1992 actual total dollar amount of the Department’s small
business prime contracts with the Department’s FY 1994 goal and that the charts
indicated the goal amount had been delivered.

We identified four charts that contained bars that represented the Department’s actual
total dollar amount of small business prime contracts for FY 1992 (about $3 billion) and
the goal for FY 1994 (about $4.5 billion). Although the dollar amounts represented by
the bars did not change, the banners, headers, and labels on the charts had been
changed to designate different small business categories. Also, on three of the charts,
the bar representing the dollar amount for the FY 1994 goal was labeled “DELIVERED.”
This resulted in charts that contained incorrect information, either because the charts
incorrectly characterized the Department’s goal as being delivered, or because the title
of the chart indicated the chart represented a subset of the small business program,
even though the dollar amounts represented by the chart were for the total program.
Table 2 (see page 15) shows a summary analysis of the charts that compare the
FY 1992 actual total dollar amount of the Department’s small business prime contracts
with the Department’s FY 1994 small business contracting goal.




                                          14
                                                                       TABLE 2

                                             ANALYSIS OF THE CHARTS THAT COMPARE
                                             FY 1992 ACTUAL DATA TO THE FY 1994 GOALS


        Date Of                                                               Was FY 1994    Was Goal       Chart Correctly
        Planned                  Planned                                      Actual # Known Bar Labeled    Characterized     Was Chart
      Presentation   Presenter   Audience             Header Used*            To DOE?        “DELIVERED”?   In Talk?          Incorrect?


          7/12/95       S-1      Congressional        Women & Minority          Yes             Yes            Unknown           Yes
                                 Black Caucus         Businesses


          7/27/94       S-1      DOE Diversity        Small, Women &            No              Yes               Yes            Yes
                                 Conference           Minority Businesses


          4/18/95       S-1      White House          Increased Opportunity     Undetermined    No             Unknown            Yes
                                 Conference on        for Small Business        (Not Yet
                                 Small Business                                 Reported
                                                                                to SBA)

          4/17/95       ED       Richland Small       Small, Women &            Undetermined    Yes            Unknown            Yes
                      Director   Business Diversity   Minority Businesses       (Not Yet
                                 Conference                                     Reported
                                                                                to SBA)


* The data actually presented in the charts were the dollar amount for the Department’s FY 1992 actual total small business prime contracts
  (which included women and minority businesses) and the dollar amount for the Department’s FY 1994 goal for small business prime contracts.
Chart One, which was prepared for a briefing by the former Secretary to the
Congressional Black Caucus on July 12, 1995, is an example of a chart that contains
incorrect information.

Chart One: SETTING A NEW COURSE - WOMEN & MINORITY BUSINESSES




We determined that the data on the chart relates to the Department’s small business
prime contract dollar amounts (both the actual amount for FY 1992 and the goal for
FY 1994), even though the title indicates that the chart contains data regarding the
Department’s totals for “WOMEN & MINORITY BUSINESSES.” We found that the
actual amounts spent by the Department for women and minority contracts were known
for FY 1992 and FY 1994 at the time of the presentation and differed significantly from
the statistics presented on the chart. For example, according to the chart, the amount
for “WOMEN & MINORITY BUSINESSES” for FY 1992 was about $3.1 billion, while the
actual amount as reported by the Department to SBA was $1.017 billion. Also,
according to the chart, the amount for “WOMEN & MINORITY BUSINESSES” for
FY 1994 was about $4.5 billion, while the actual amount as reported by the Department
to SBA on May 10, 1995, was $1.239 billion.

We were unable to determine whether the former Secretary used this chart in her
presentation to the Congressional Black Caucus on July 12, 1995, or, if it was used,
how the information on the chart was characterized. However, we believe the use of


      16
the Department’s small business prime contract dollar amounts on the chart, both the
actual amount for FY 1992 and the goal for FY 1994, to represent the amounts for
Women and Minority Businesses (which were known at the time of the presentation),
and the label of “DELIVERED” on the “Clinton” bar, make the chart incorrect.

We identified three similar charts that compared the FY 1992 actual total dollar amount
of small business prime contracts with the FY 1994 goal, which made the information
on the charts incorrect. One chart, titled “DIVERSITY DELIVERED,” was prepared for
a presentation by the former Secretary to a Diversity Conference in Washington, DC,
on July 27-29, 1994. Another chart, titled “ENERGIZING SMALL BUSINESS -
INCREASED OPPORTUNITY FOR SMALL BUSINESS,” was prepared for a
presentation by the former Secretary on April 18, 1995, to the White House Conference
on Small Business. A third chart, titled “THE ECONOMICS OF DIVERSITY- DOE’S
PAST SUCCESSES,” was prepared for a presentation by the Director, ED, for the
Richland Small Business Diversity Conference, on April 17, 1995.

With one exception, the chart for the Diversity Conference, July 27-29, 1994, we could
not determine if the charts were used in presentations or, if so, how the information on
the charts was characterized. For the one chart that we were able to determine was
used by the former Secretary, she verbally characterized the information on the chart
correctly.

      Comparison of Percentages Computed on Different Bases

We identified a chart that compared percentages of DOE’s minority business
investments for the years FY 1992 through FY 1995, which was also incorrect. This
chart, Chart Two, used a percentage for FY 1995 that had been computed on a
different basis than the previous years. It was alleged that the percentage increases
on the chart were incorrect because the FY 1995 numbers included minority
subcontracting data and the other years did not include this data.




                                         17
Chart Two: DIVERSITY-THE BUSINESS OF BUSINESS




A copy of this chart was in the former Secretary’s briefing books for a presentation to
the National Coalition of Minority Businesses on April 3, 1996. The chart was also
possibly used for a presentation to the Minority Business Community on September 26,
1996.

We were told that the number of 6.7 percent on the chart for the percentage of minority
business investment in FY 1995 was calculated using minority subcontracting data,
which was not included in the calculation of the percentages for the previous years.
According to a Procurement analyst, the Department did not start keeping minority
subcontracting data until FY 1995 and the percentage figure for FY 1995 appeared to
have been calculated by including minority subcontracting dollars.

According to a knowledgeable member of the ED staff, if the FY 1995 percentage figure
was calculated on the same basis as the previous years, e.g., without the minority
subcontracting dollars, the percentage figure for FY 1995 would be 6.0 percent, not 6.7
percent as shown on the chart. We were also told that the resultant increase from
FY 1992 to FY 1995 would be 42 percent, not a 59 percent increase as shown on the
chart.
We were unable to determine, with certainty, if the former Secretary used the chart in
her presentations and, if so, how she characterized the information on the chart.
However, we believe the use of data for FY 1995 that was not calculated on the same
basis as the data for the previous years makes the chart incorrect.
                                        18
       Source of Chart Statistics

We found that, in general, there was no back-up material to support the statistical data
depicted by the visual aids discussed above, and we could not identify anyone who
was willing to take responsibility for the data found on the visual aids. We concluded
that internal controls should be strengthened to ensure the accuracy of small business
contracting statistics prepared by staff for use by the Secretary and other senior
officials.

We attempted to determine who requested the charts containing the small business
contracting statistics and the process that led to the preparation of the charts. We were
told by a Department visual information officer that he could not recall specifically who
requested each chart or how each chart was prepared. He said, however, that he
would attend meetings, which were usually chaired by the former Chief of Staff and
attended by program officials knowledgeable of the presentation topic, speech writers,
members of the former Secretary’s staff, and others. He said that sometimes the
former Secretary would also attend. He said that during these meetings, he would be
asked to prepare a chart on a specific topic and those present would provide
information to be put on the chart. He said that, for charts containing small business
procurement statistics, the information would sometimes be provided by Procurement
officials, while other times the information would be provided by ED officials. He said
that when he asked who he should identify as the source of the information on the
chart, he would be told to use either the Office of Procurement or ED.

We believe that the source of the small business contracting statistics used in the
preparation of visual aids for use by the Secretary and other senior officials, as well as
how the statistics were developed, should be documented. If such documentation were
available, it would provide an additional internal control to ensure the accuracy of the
information used on the visual aids.

In comments to a draft of this report, the Director, ED, stated that:

         “We do not agree with the initial draft Report’s finding that the charts or visual
aids prepared for the former Secretary contained potentially misleading or incorrect
information. As the Report indicates, except for one chart, the Inspector General’s
office could not determine whether the charts or visual aids were actually used or not.
For the one visual aid that the Inspector General’s office could determine was used by
the former Secretary, the former Secretary characterized the information correctly in
her presentation. The former Secretary and the ED
        Director consistently used the correct characterization when discussing
        the Department’s small, minority and women-owned business
        participation with the Department.”

As discussed above, our inspection identified five charts prepared for briefings on the
Department’s small business program that contained incorrect information. Several of
these charts were in briefing books prepared for presentations by the former Secretary.
The presence of these charts in the briefing books creates the potential for the charts, if
                                          19
used, to provide an inaccurate depiction of the Department’s small business contracting
statistics. Therefore, we believe that steps should be taken to strengthen internal
controls regarding the development of small business contracting statistics and visual
aids for use in presentations by the Secretary and other senior officials.


VI. RECOMMENDATIONS

We recommend that the Director, Office of Economic Impact and Diversity:

     1. Ensure that required annual reports to Congress on the Department’s small
     business program are submitted on a timely basis.

     Management Comments. The Director, ED, in commenting on a draft of this
     Report concurred in part with this recommendation, stating that: “In the future, we
     will be more prudent in ensuring that ED reports are submitted on a more timely
     basis. We will also institute a better tracking system for these types of Reports.”

     We believe the actions by the Director, ED, when implemented, will be
     responsive. Therefore, this recommendation should remain open until the tracking
     system identified by the Director is fully implemented.

     2. Coordinate with the Office of Procurement and Assistance Management to
     determine the desirability of identifying a single office responsible for developing
     and releasing small business statistical information.

     Management Comments. The Director, ED, concurred with this recommendation.

     In comments to a draft of this report, the Deputy Assistant Secretary for
     Procurement and Assistance Management, stated that:

      “. . . the Director, Office of Economic Impact and Diversity and I have
      completed coordination on Recommendation 2 as follows: . . .The responsibility
      for collecting, developing, and approving the release of the small business
      statistical information will be assigned to the Office of Procurement and
      Assistance Management. The assignment of functions will be formalized in a
      memorandum from the Deputy Secretary and Chief Operating Office to all
      parties concerned.”

     We believe that the actions described by the Deputy Assistant Secretary, when
     implemented, will be responsive to our recommendation. Therefore, until this
     memorandum is issued this recommendation should remain open.

     3. Ensure that information submitted for the Secretary’s Performance Agreement
     with the President is accurate and, if the information is changed, take appropriate
     action to ensure that changes are reported to the appropriate office so that the
     Performance Agreement can be revised, if needed.


                                         20
Management Comments. The Director ED concurred with this recommendation.

The Director, Office of Strategic Planning, Budget and Program Evaluation,
Office of Policy and International Affairs, in commenting on a draft of this report
stated that, “When the Secretary’s FY 1998 Performance Agreement with the
President is signed, we plan to ensure program offices are aware of the
mechanism to revise it.”

We believe that the assignment to the Office of Procurement and Assistance
Management, Office of Management Systems (Competition Advocate) (HR-53),
of the responsibility for the Department’s small business statistical information,
as discussed in management’s response to recommendation number 2, should
satisfy the need to ensure the accuracy of the small business information
submitted for incorporation into the Secretary’s Performance Agreement with the
President. However, until such time that HR-53 issues policies/procedures
implementing their new responsibilities, this recommendation should remain
open.

4. Take appropriate action to strengthen internal controls to ensure the accuracy
of small business contracting statistical information and visual aids prepared for
use by the Secretary and other senior officials.

Management Comments. The Director, ED, concurred with this recommendation.

We believe that the assignment to the Office of Procurement and Assistance
Management of the responsibility for collecting, developing, and approving the
release of the small business statistical information as discussed in
management’s response to recommendation number 2, when implemented, will
be responsive to this recommendation. Therefore, until the reassignment of the
above responsibility is completed, this recommendation should remain open.

5. Take appropriate action to ensure that the source of the small business
contracting statistics used in the preparation of visual aids for use by the
Secretary and other senior officials, as well as how the statistics were developed,
is appropriately documented.

Management Comments. The Director, ED, concurred with this recommendation,
and stated that: “With respect to . . . the accuracy and documentation of the
Department’s small business contracting statistics, we are also concerned and
have been working with the Office of Procurement and Assistance Management to
implement appropriate solutions.”

We believe that the assignment to the Office of Procurement and Assistance
Management of the responsibility for collecting, developing, and approving the
release of the small business statistical information as discussed in
management’s response to recommendation number 2, will be responsive to this
recommendation. Therefore, until the reassignment of the above responsibility is
completed this recommendation should remain open.

                                     21
We also recommend that the Director, Office of Strategic Planning, Budget and
Program Evaluation, Office of Policy and International Affairs:

     6. Ensure that DOE program offices are aware of the mechanism to revise
     information previously submitted in the Secretary’s Performance Agreement with
     the President.

     Management Comments. The Director, Office of Strategic Planning, Budget and
     Program Evaluation, Office of Policy and International Affairs, concurred with this
     recommendation, and stated that, “When the Secretary’s FY 1998 Performance
     Agreement with the President is signed, we plan to ensure program offices are
     aware of the mechanism to revise it.”

     We believe the actions described by the Director, is responsive to our
     recommendation. Therefore, this recommendation can be closed.

Further, we recommend that the Director, Office of the Executive Secretariat, Office of
Human Resources and Administration:

     7. Evaluate its guidance in the ACCRTS regarding the process for notifying the
     Secretary of late reports by an Information Memorandum to determine whether
     such a requirement is necessary. If it is determined that an Information
     Memorandum should continue to be required, ascertain whether this requirement
     is being followed by the Department, and take appropriate action if the
     requirement is not being followed.

     Management Comments. The Director, Office of the Executive Secretariat,
     concurred with this recommendation and stated that:

      “The Office of the Executive Secretariat (ES) has reviewed its procedures
      dealing with late reports to Congress. ES believes that its current procedures,
      which call for the Program Secretarial Officer (PSO) to prepare letters to notify
      Congress when a report which has [a] due date established by statute or
      prepare an Information Memorandum to the Office of the Secretary when the
      due date is established by the program office, are sound management
      practices.

      “ES provides a bi-weekly reminder of the program office’s responsibility when it
      sends out notice to the program office to update their overdue or coming due
      reporting requirements. . . . ES has directed in the bi-weekly reminder that it is
      the program offices’ responsibility to follow through with notification concerning
      overdue reports, rather than that of ES.”

     We believe the Director’s actions are responsive to our recommendation.
     Therefore, this recommendation can be closed.



                                         22
                                                                         APPENDIX A


                              Definitions of Important Terms


The terms defined below are important to the subject of this report.

Small Business - a concern, including its affiliates, that is independently owned and
operated, not dominant in the field of operation in which it is bidding on government
contracts, and qualified as a small business under the criteria and size standards in
Title 13, Code of Federal Regulations, Part 121.

Small Disadvantaged Business - a small business that is at least 51 percent
unconditionally owned by one or more individuals who are both socially and
economically disadvantaged, or a public owned business that has at least 51 percent of
its stock unconditionally owned by one or more socially and economically
disadvantaged individuals and that has its management and daily business controlled
by one or more such individuals.

    (a) Socially disadvantaged individuals means individuals who have been subjected
        to racial or ethnic prejudice or cultural bias because of their identity as a
        member of a group without regard to their qualities as individuals.

    (b) Economically disadvantaged individuals means socially disadvantaged
        individuals whose ability to compete in the free enterprise system is impaired
        due to diminished opportunities to obtain capital and credit as compared to
        others in the same line of business who are not socially disadvantaged.
        Individuals who certify that they are members of named groups (Black
        Americans, Hispanic Americans, Native Americans, Asian-Pacific Americans,
        Subcontinent-Asian Americans) are to be considered socially and economically
        disadvantaged.

Women-Owned Small Business - a small business concern:

    (a) Which is at least 51 percent owned by one or more women; or, in the case of
        any publicly owned business, at least 51 percent of the stock of which is
        owned by one or more women; and

    (b) Whose management and daily business operations are controlled by one or
        more women.




                                         23
                                                                          APPENDIX B

            Development of Small Business Prime Contracting Goal for
                       FY 1995 Performance Agreement


The following is a chronological discussion of selected events that resulted in the
former Secretary and the President signing the Department’s FY 1995 Performance
Agreement. The Performance Agreement contained an FY 1995 small business prime
contracting goal (more than 34 percent) for the Department that differed from the
number for the Department’s FY 1995 small business contracting goal that was finally
provided by the Department to SBA (18.4 percent).

On October 18, 1994, the Department submitted it’s FY 1995 procurement goals to
SBA. The FY 1995 goals were developed using a baseline consisting of the total dollar
value of prime contracts, excluding M&O salaries and expenses. Using this baseline,
the number for the Department’s FY 1995 small business prime contracting goal was
computed as 34.5 percent.

On October 28, 1994, the Office of Policy and International Affairs received a facsimile
from a senior ED official, which identified the Department’s small business prime
contracting goals for FY 1994 as 25 percent and for FY 1995 as 34.5 percent. A senior
policy analyst told us that a contractor employee used this information to prepare the
commitment in the Department’s FY 1995 Performance Agreement with the President,
regarding “IMPROVING ACCESS FOR SMALL BUSINESSES.”

In a November 21, 1994, letter to Secretary O’Leary, the Administrator, SBA, accepted
the number of 34.5 percent for the Department’s FY 1995 small business prime
contracting goal.

In a February 6, 1995, letter to the Director, ED, the Deputy Administrator, SBA, stated:

    “As we agreed, DOE has a unique situation regarding contracts with private
    sector firms for the management and operation (M&O) of its facilities.
    Inclusion of salaries and benefits paid to the employee’s [sic] of these M&O
    contractors in the baseline amount used to calculate procurement goals
    does not give a true picture of the procurement opportunities available to the
    small business community from DOE. As a result, this year we accepted
    DOE’s goals with the amount paid by M&O contractors for salaries and
    benefits excluded from the baseline.

    “I believe that the agreement we reached will benefit both DOE and the
    small business community through the development of goals that are based
    on the actual procurement dollars available for contracting opportunities.”

In mid-June 1995, the proposed FY 1995 Performance Agreement with the President
was signed by the Department’s Secretarial Officers and Directors.


                                         24
On June 22, 1995, then Secretary O’Leary signed the FY 1995 Performance
Agreement.

In a July 10, 1995, letter to the Director, ED, the Deputy Administrator, SBA, informed
the Department that although SBA agreed to allow DOE to exclude salaries and
expenses for employees of M&O contractors from the procurement baseline for goaling
purposes in FY 1995, goals for FY 1994 had been submitted based on inclusion of the
M&O salaries and expenses. The Deputy Administrator stated that: “As a result, we
could not approve your request to exclude these costs from the fiscal year 1994
baseline. To do so would distort results governmentwide.” The Deputy Administrator
also stated that:

    “In May we received the DOE achievement report for fiscal year 1994.
    Results were presented excluding M&O salaries and expenses from the
    procurement baseline and are therefore unacceptable. In addition, upon
    further review and discussions with Congress, it has become apparent that
    many Federal agencies have contractual arrangements similar to DOE’s
    relationship with the M&O contractors. It would not be in the interest of small
    business, however, to exclude procurement dollars from the goaling baseline
    in all such cases. Since we cannot offer this agreement to all agencies in
    similar situations, it is not appropriate to allow DOE to exclude these dollars.
    In view of the foregoing, our letter of February 6, 1995, must be rescinded.
    Please resubmit 1994 achievements and 1995 goals using the total DOE
    procurement baseline, including salaries and expenses for the M&O
    contractors, by July 21, 1995.”

On July 14, 1995, the Office of Policy and International Affairs was notified by the
National Performance Review that the President had signed the Department’s FY 1995
Performance Agreement.

In an August 18, 1995, letter to the Deputy Administrator, SBA, the Director, ED,
provided SBA the Department’s revised FY 1994 small business prime contracting
achievements and revised FY 1995 small business prime contracting goals. The
revised achievements and goals were developed using a baseline that included M&O
contractor salaries and expenses.

We were told by senior ED officials that the number for the Department’s FY 1995 small
business prime contracting goal in the FY 1995 Performance Agreement with the
President was the number that had been initially reported by the Department to SBA.




                                         25
                                                  IG Report No. INS-O-98-02

                      CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as responsive as
possible to our customers' requirements, and therefore ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1.    What additional background information about the selection,
      scheduling, scope, or procedures of the audit or inspection would
      have been helpful to the reader in understanding this report?

2.    What additional information related to findings and recommendations
      could have been included in this report to assist management in
      implementing corrective actions?

3.    What format, stylistic, or organizational changes might have made
      this report's overall message more clear to the reader?

4.    What additional actions could the Office of Inspector General have
      taken on the issues discussed in this report which would have been
      helpful?

Please include your name and telephone number so that we may contact
you should we have any questions about your comments.

Name:_______________________________ Date:_______________

Telephone:___________________________ Organization:_____________

When you have completed this form, you may fax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

             Office of Inspector General (IG-1)
             Department of Energy
             Washington, D.C. 20585

             ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of
the Office of Inspector General, please contact Wilma Slaughter at (202)
586-1924.



                                        26
